                            AUDIT OF RHODE ISLAND
                          DISTRICT ADVISORY COUNCIL

                            AUDIT REPORT NUMBER 0-28

                                 SEPTEMBER 29, 2000




This report may contain proprietary information subject to the provisions of 18 USC 1905
and must not be released to the public or another agency without permission of the Office
of Inspector General.
                          U.S. Small Business Administration
                              Office of Inspector General
                                Washington, DC 20416

                                                                     AUDIT REPORT
                                                              Issue Date: September 29, 2000
                                                              Number: 0-28

TO:            Aida Alvarez, Administrator

               Robert J. Baskin, Associate Administrator for Field Operations

               Charles W. Payne, General Counsel

               Kristine Marcy, Chief Operating Officer

               Mark S. Hayward, District Director, Rhode Island District Office




FROM:          Robert G. Seabrooks, Assistant Inspector General for Auditing

SUBJECT:       Audit of Rhode Island District Advisory Council

        Attached is a copy of the subject audit report. The report contains two findings with one
recommendation to the SBA Administrator, three recommendations to the Associate
Administrator for Field Operations, two recommendations to the General Counsel, one
recommendation to the Chief Operating Officer, and one recommendation to the Rhode Island
District Office Director.

       The findings in this report are the conclusions of the Office of Inspector General’s
Auditing Division based on a review of the Rhode Island District Advisory Council’s records;
pertinent laws, regulations, and policies; and interviews with SBA and General Services
Administration (GSA) officials. The findings and recommendations are subject to review and
implementation of corrective action in accordance with existing Agency procedures for audit
follow-up and resolution.

       Please provide your management decision for each recommendation made to you within
30 days from the date of this report on the attached SBA Forms1824, Recommendation Action
Sheet.

       Any questions or discussion of the issues contained in the report should be directed to
Robert Hultberg, Director, Business Development Programs Group, at (202) 205-7204.

Attachment
                                Audit of Rhode Island District Advisory Council


                                                   TABLE OF CONTENTS



                                                                                                                      Page

SUMMARY .................................................................................................................. i

INTRODUCTION

          A. Background ................................................................................................. 1

          B. Audit Objective and Scope .......................................................................... 2

RESULTS OF AUDIT

          A. Rhode Island District Advisory Council (RI Council)
             Engaged in Non-Advisory Activities ........................................................... 3

          B. Improvements Needed in SBA Management and Oversight
             of District Advisory Councils ...................................................................... 7

APPENDICES

A: SBA Management’s Response

B: Report Distribution




                                                                     ii
                                          SUMMARY

       The purpose of this audit was to determine whether the Rhode Island District Advisory
Council (the RI Council) operated in accordance with governing laws, regulations, and policies.
We found that various RI Council activities and SBA actions to oversee the RI Council were not
in accordance with the Federal Advisory Committee Act, Public Law 92-463 (FACA); Code of
Federal Regulations (CFR); and SBA’s standard operating procedures for Advisory Councils (the
SOP). The SOP, however, contradicts SBA’s District Advisory Council charter and possibly
FACA regarding what Advisory Councils can and cannot do in many instances. This and other
evidence lead to the additional conclusion that improvements are needed in SBA’s management
and oversight of District Advisory Councils.

        Though under the current charter SBA’s District Advisory Councils are only allowed to
advise, the RI Council engaged in the following SBA or SBA related activities for non-advisory
purposes:

       •   Soliciting funds and charging fees;
       •   Maintaining a private checking account;
       •   Paying expenses for and managing SBA events, e.g. Small Business Week;
       •   Developing and giving training seminars;
       •   Developing and maintaining a website; and
       •   Entering into Memoranda of Understanding (MOUs) and co-sponsorship agreements
           with SBA and other organizations.

A former Rhode Island District Director stated that he followed the example of other SBA
District Offices when he encouraged and allowed the RI Council to engage in non-advisory
activities. He believed that the SOP permitted Advisory Councils to engage in such activities.
The present District Director and District Counsel stated that they followed the SOP, which cites
non-advisory activities. The SOP does cite non-advisory activities, contradicting the charter and
possibly FACA in those areas. FACA and the charter, however, take precedence over the SOP.
The present District Director stated that the RI District Office was never sent a copy of the
charter and, therefore, was unaware that the Council was restricted to only providing advice.

       SBA needs to improve its management and oversight of its District Advisory Councils.
Though required by FACA, SBA had no Committee Management Officer (CMO) to manage and
oversee the operations of the District Advisory Councils and SBA’s reporting requirements under
FACA.

       We recommend that SBA:

       •   Ensure that District Advisory Councils do not engage in any non-advisory activities
           unless and until the charter is amended;
       •   Determine whether impermissible augmentation of SBA’s appropriation has occurred
           and, if so, take appropriate corrective actions;
       •   Properly dispose of all funds which District Advisory Councils should not possess;

                                                i
       •   Ensure that the SOP provides for full compliance with governing laws, District
           Advisory Council charters, and regulations; and
       •   Appoint a Committee Management Officer (CMO) to control and supervise the
           establishment, procedures and accomplishments of Advisory Councils.

       SBA management responded that they intend to provide a response to all
recommendations made in the final audit report. The response also indicated they have been in
the process of improving the district advisory council program and eliminating the deficiencies
found by the audit. The response in its entirety is included as Appendix A.




                                                ii
                                      INTRODUCTION

A. BACKGROUND

        SBA District Advisory Councils are advisory committees established according to the
Small Business Act and an approved charter filed with GSA, the Library of Congress and the
Small Business Committees of Congress. The RI Council is one such advisory committee,
established at the discretion of the SBA Administrator pursuant to the provisions of FACA and
the Small Business Act. The term ''advisory committee'' means any committee, board,
commission, council, conference, panel, task force, or other similar group, or any subcommittee
or other subgroup.

       Congress recognized the importance of interacting with the nation’s private citizens and
having them contribute to the government’s overall efforts. Furthermore, Congress found that
advisory committees are a useful and beneficial means of furnishing expert advice, ideas, and
diverse opinions to the Federal government. Congress, however, also found that the need for
many existing advisory committees has not been adequately reviewed. In 1972, Congress
enacted FACA to ensure advisory committees:

       •   provide relevant and objective advice;
       •   are open to the public;
       •   act promptly to accomplish their work; and
       •   comply with reasonable cost controls and record keeping requirements.

       Government-wide, approximately 1,000 advisory committees provide advice to the
President and Federal agencies. With issuance of Executive Order #12024, the General Services
Administration’s Committee Management Secretariat became responsible for oversight of these
Federal advisory committees. Title 41 CFR, Part 101-6, contains guidance regarding FACA
implementation. Though called the Rhode Island District Advisory Council within SBA, GSA
knows the RI Council as the Providence District Advisory Council.

        The Small Business Act of 1953 Section 8(b)(13), as amended, empowers SBA “to
establish such advisory boards and committees as may be necessary to achieve the purpose of this
Act…” Along with other types of advisory committees, SBA established District Advisory
Councils. The District Advisory Councils are chartered for two-year terms. SBA has one master
charter for all of its District Advisory Councils. According to SBA’s 1999 District Advisory
Council charter:

       The Councils will provide advice and opinions regarding the effectiveness of and
       need for SBA programs, particularly within the local districts which members
       represent . . . . The Councils will provide advice and recommendations only.




                                               1
B. AUDIT OBJECTIVE AND SCOPE

       The audit objective was to determine whether the RI Council was operating in accordance
with governing laws, regulations, and policies. We reviewed a judgmental sample of the RI
Council’s records (financial, meeting minutes, correspondence, etc.) for the period 1992 through
1999, and interviewed officials in the following offices: General Counsel (OGC); Chief Financial
Officer (OCFO); the Boston Regional Office; the Rhode Island District Office; and GSA’s
Committee Management Secretariat. We requested and received an OGC legal opinion
concerning whether SBA District Advisory Councils can engage in non-advisory activities.
According to this opinion, under the present charter, the Council’s sole function is to provide
SBA advice and recommendations, and non-advisory activities or activities for purposes other
than advice are not allowed.

       The fieldwork was conducted from December 20, 1999 to February 28, 2000. The audit
was conducted in accordance with Government Auditing Standards.




                                               2
                                    RESULTS OF AUDIT


Finding A: Rhode Island District Advisory Council (RI Council) Engaged in Non-Advisory
          Activities.

        Although SBA District Advisory Councils are only allowed to advise, the RI Council
engaged in numerous activities that were non-advisory. A former Rhode Island District Director
stated that he followed the example of other SBA District Offices when he encouraged the RI
Council to engage in these non-advisory activities. He believed that the RI Council could do so
based on the language of the SOP, which cites various non-advisory activities. By engaging in
non-advisory activities, the RI Council violated its charter and possibly FACA, and possibly
augmented SBA appropriations.

       The RI Council engaged in non-advisory SBA or SBA-related activities including:

       •   Raising approximately $586,000 from 1993 through 1999 by soliciting funds for
           events such as Small Business Week and MEDWeek, and charging fees for training;
       •   Maintaining a private checking account (the account had a balance of $34,176.47 at
           December 17, 1999) for purposes not authorized by the charter;
       •   Paying approximately $530,000 of SBA and SBA related expenses;
       •   Managing SBA events, e.g. Small Business Week;
       •   Developing and maintaining a website for purposes not authorized by the charter;
       •   Developing and presenting training seminars including PowerUp, a 13 week training
           course, and various training seminars provided on the website;
       •   Mentoring;
       •   Promoting SBA programs and events;
       •   Making a donation to and paying expenses for a SBA Business Information Center
           (BIC);
       •   Entering into MOUs and cosponsorship agreements with SBA and other
           organizations; and
       •   Judging nominations for SBA awards.

According to SBA officials, other SBA District Advisory Councils also have engaged in non-
advisory activities.

        Under the current charter, SBA’s District Advisory Councils are only allowed to engage
in advisory functions. The 1992 and 1993 charters authorizing SBA’s District Advisory
Councils stated that its District Advisory Councils’ duties are limited to being advisory. The
1999 charter states that “The Councils will provide advice and recommendations only.” SBA
had not filed the 1995 and 1997 charters with GSA and we could not locate these charters at
SBA. FACA Sections 2 (b)(6) and 9(b), state “the function of advisory committees should be
advisory only….and [u]nless otherwise specifically provided by statute or Presidential directive,
advisory committees shall be utilized solely for advisory functions.” OGC believes it is possible
that Section 8(b)(13) of the Small Business Act may give SBA the authority to have District
Advisory Councils engage in non-advisory functions if the charter is modified to include non-
                                                3
advisory activities. This section of the Small Business Act states that the Administrator has the
authority to “establish such advisory boards . . . as may be necessary to achieve the purposes of
this Act.” OGC has not however, determined whether the Small Business Act actually does
provide that authority.

         The former Rhode Island District Director believed that the RI Council was permitted to
raise funds and maintain a checking account based on the broadness of the language in the SOP.
As such, he encouraged and allowed the RI Council to engage in these activities. He stated that
he copied the example of other SBA District Advisory Councils that were engaging in similar
activities, interpreting the SOP as permitting Advisory Councils to engage in such activities. The
present District Director and District Counsel also stated that they followed the SOP, which cites
non-advisory activities and did not know that the SOP was incorrect. The present District
Director stated that the RI District Office was never sent a copy of the charter and therefore, was
unaware that the Council was restricted to only providing advice. The “Goals” and “Functions”
sections of the SOP provide for such non-advisory activities as:

       •   assisting the SBA in carrying out its role,
       •   promoting SBA programs,
       •   educating the public,
       •   speaking out for small business and SBA programs, and
       •   encouraging banks to participate in SBA programs and make more capital available.

Another section of the SOP is devoted to Small Business Week activities, and states “Advisory
Council members shall participate in planning and executing Small Business Week activities in
coordination with SBA offices.” The SOP, however, cannot override the advise only limitations
imposed by the charter and possibly FACA.

       The RI Council commercial checking account provided the RI District Office a source of
non-appropriated funds to engage in activities that the District Office determined should be
undertaken. The following chart, which was developed using the receipts and expenditures from
the RI Council’s financial records maintained in “Quicken Quick Books,” shows the approximate
amounts raised and expended by the RI Council for specific SBA events and projects.




                                                4
                                      Total
                                    Received         Total Paid
                                      by the           by the
            Event                    Council          Council               Difference
       Small Business Week          $459,435         $443,670               $ 15,765
       MED Week                     $ 57,741         $ 30,431               $ 27,310
       Bridging the GAP             $ 17,026         $ 9,690                $ 7,336
       BIC Grand Opening            $       0        $ 3,949                $ (3,949)
       Newport Conference           $       0        $ 7,556                $ (7,556)
       Power Up                     $ 9,780          $ 3,100                $ 6,680
       Women’s Breakfast/Roundtable $       0        $ 2,084                $ (2,084)
       White House Conference       $       0        $ 1,367                $ (1,367)
       Advisory Council Meetings $          0        $ 13,877               $(13,877)
       Y2K                          $       0        $     868              $ (868)
       Technology (Website)         $       0        $ 11,055               $(11,055)
                      Totals        $543,982         $527,647               $ 16,335

According to an official with GSA’s Committee Management Secretariat, advisory councils’
expenses should be paid out of the sponsoring agency’s appropriations. Consequently, some or
all of the RI Council’s expenditures might have augmented SBA’s budget. For example, the RI
Council paid the expenses associated with its meetings rather than SBA. Since SBA has gift
acceptance authority under the Small Business Act, the funds raised and expensed by the RI
Council for SBA events and projects could be construed as gifts to SBA. Therefore, we
recommend that the OGC determine whether the use of funds raised by SBA District Advisory
Councils constitutes augmentation of SBA’s appropriations, and, if augmentation has occurred,
determine what corrective actions need to be taken.


                                       Recommendations

We recommend that:

A01:   The Rhode Island District Director take necessary action to ensure that the RI Council
       ceases all non-advisory activities, unless and until the master charter is amended to allow
       such activities;

A02: The Associate Administrator for Field Operations (AAFO) issue a Procedural Notice to all
     District Offices with District Advisory Councils explaining what activities these Councils
     can partake in and notifying them that these Councils must immediately cease all non-
     advisory activities unless and until the master charter is amended to allow these activities;

A03: The General Counsel determine whether the use of funds raised by the Rhode Island
     Advisory Council and any other Advisory Councils identified by the AAFO constitutes
     impermissible augmentation of SBA’s appropriations, and if impermissible augmentation
     has occurred, determine what corrective actions need to be taken;


                                                5
A04: The General Counsel determine the proper disposition of the funds remaining in the Rhode
     Island Advisory Council’s checking accounts and of any such funds for other SBA
     Advisory Councils identified by the AAFO;

A05: If impermissible augmentation has occurred, the Associate Administrator for Field
     Operations, in consultation with the Chief Financial Officer, ensure that appropriate
     corrective action is taken;

A06: The Associate Administrator for Field Operations, in consultation with the Chief Financial
     Officer, ensure that the funds remaining in all District Advisory Council checking
     accounts be properly disposed of according to the General Counsel’s determination;

A07: The Chief Operating Officer issue a revised SOP for SBA Advisory Councils, which
     provides guidance to ensure compliance with FACA, SBA’s District Advisory Council
     charter and 41 CFR Part 101-6.

SBA Management’s Response

        In its response, SBA management indicated that it issued an Information Notice
informing all district offices and their advisory councils to cease and desist from all such non-
advisory activity. Management also indicated that it is in the process of drafting a procedural
notice and new Standard Operating Procedures that will address recommendations A02 and A07.
Management did not specifically address the other recommendations in its response and intends
to do so in its response to the final report.

       In its response, SBA management also made the following observation:

       not one small business was hurt by the actions of the RI Council, but in fact many
       small businesses across the Nation were assisted. Clearly the RI Council
       conducted itself consistently and honorably within what it believed were the
       dictates of the SOP . . .




                                                6
Finding B: Improvements Needed in SBA Management and Oversight of District Advisory
           Councils.


        SBA needs to improve its management and oversight of its District Advisory Councils.
SBA currently does not have a CMO, the official responsible for controlling and supervising the
establishment, procedures, and accomplishments of SBA’s District Advisory Councils, though
FACA Sec. 8(b) requires it. SBA did not:

       •   Question reported closed and partially closed meetings though such meetings cannot
           be held without obtaining the authorization from the Administrator;

       •   Ensure there were the required detailed minutes of advisory council meetings or
           certifications that the minutes of the meetings were correct;

       •   Post required notices of Council meetings in the Federal Register;

       •   Ensure maintenance of a required system of records covering past, present, and
           proposed members of SBA Advisory Councils;

       •   Ensure that required reports of Advisory Council recommendations and resolutions
           were prepared and distributed;

       •   Ensure that submitted annual reports on Council operations contained complete and
           correct information;

       •   Ensure that Council members did not exceed their limit of three two-year terms (total
           of 6 years) of service; and

       •   Send GSA required copies of the charters for years 1995 through 1998.

      Better oversight of SBA Advisory Councils is needed to ensure that SBA and the
Councils operate in compliance with FACA, applicable Federal regulations and the SOP.


                                       Recommendation

B01:   We recommend that the Administrator appoint a Committee Management Officer (CMO)
       with responsibility for controlling and supervising the establishment, procedures, and
       accomplishments of SBA’s Advisory Councils to ensure that they comply with governing
       laws, regulations, and policies.

SBA Management’s Response

      In its response, management indicated that it has announced a position for a Committee
Management Officer.

                                               7
                                                                                     APPENDIX A
                                                                                      Page 2 of 4

       Management Officer. This relates to your recommendation #B01.

We believe it is important to note in this audit report that SBA uses district and other Advisory
Councils, as provided in the Small Business Act, as an integral component of its service to the
Nation’s 25 million small businesses. The context for their use in the Rhode Island District
Office and elsewhere at SBA has always been to enhance and support the level of service to
small business and not for any other reasons. Finally, the Agency believes that it is unlikely that
any augmentation occurred by agrees to consider all the circumstances with care. It is important
to note that the Office of General Counsel has not officially opined to date on this issue as
requested by your office’s recommendation #A03.

                                         BACKGROUND

In January of 1992 the RI Council’s membership was increased so its membership’s profile
represented 50% small business, 30% financial institutions, and 20% from business development
organizations. Since 1992, hundreds of individuals have volunteered and served as members.
They have all had a very positive and valuable effect on the Rhode Island business community,
and we firmly believe that these tireless volunteers should be congratulated for their efforts on
behalf of the small business community of Rhode Island and out nation’s entrepreneurs.

In 1991 the Rhode Island District Office has the following dubious distinctions:

       •   Ranked 79 of 82 district offices, branch offices and post of duty stations for loan
           volume.
       •   The number of small business receiving a SBA loan guarantee was 1 business for
           every 553 small business in Rhode Island.
       •   The loan portfolio currency rate (number of loans paying on time) was the worst in
           the nation.
       •   Small Business Week celebration had fewer than 75 people in attendance.
       •   The district office’s annual loan production was approximately 60 loans and roughly
           $10 million per year.

In addition, the New England economy was in an economic recession. New England’s financial
institutions were closing because of capital shortfall. In Rhode Island this capital shortfall cause
over 55 financial institutions to close. Financial institution in order to conserve capital stopped
making new business loans and recalled existing loans, including business loans that had never
missed a loan payment. Ins short the capital crunch of the New England region cascaded into a
credit crunch for Rhode Island’s small business, causing the unemployment rate to be one of the
worst in the country.

In January of 1992, the newly appointed district director responded to the poor performance of
the economy and the district office by developing a strategic plan which included using the RI
Council as a center point for the economic recovery of Rhode Island’s small business. The
theme of the district director and the restructured Council was “as long as Rhode Island small
businesses were standing in line for access to credit, hardworking men and women of Rhode
Island will be standing in line for jobs.”
                                                 2
                                                                                    APPENDIX A
                                                                                     Page 3 of 4


The RI Council was an integral part of the “turn around” of the Rhode Island small business
economy and the prosperity the state enjoys today. These volunteers gave of themselves to help
their fellow small business owners grow and develop. In the context of this report we do not
want their efforts on behalf of small business to become mired in the technical issues of the
Agency’s Standard Operating Procedures.

We believe that it is clear that the RI Council acted and operated in good faith. In addition, the
district office acted in good faith by providing advice on what was believed to be an accurate
Standard Operating Procedures for a district advisory council. We are pleased that the report
acknowledges in the summary (i) “The SOP, however, contradicts SBA’s District Advisory
Council Charter and possibly FACA regarding what Advisory Council can and cannot do in
many instances.” As stated by the former district director, he believed that he followed the SOP
as it related to the RI Council and its activities.

We appreciate the reference in the report that the existing SOP states “The Goals and Function
section of the SOP provide for such non-advisory activities as”

       1.)   assisting the SBA in carrying out its role
       2.)   promoting SBA programs
       3.)   educating the public
       4.)   speaking out for small business and SBA programs, and
       5.)   encouraging banks to participate in SBA programs and make more capital available

Another section of the SOP is devoted to Small Business Week activities and states “Advisory
Council members shall participate in planning and executing Small Business Week activities in
coordination with the SBA offices.” (Italic print direct from the report.)

With the combined efforts of the RI Council and the SBA District Office the following outcomes
were achieved:

       •     SBA loans to small business are one SBA loan for every eight small businesses in
             Rhode Island, a market penetration that is one of the best in the Nation.
       •     SBA’s loan production is consistently over 500 loans per year and in excess of $100
             million annually.
       •     The currency rate for SBA’s portfolio in Rhode Island is 93%.
       •     Rhode Island Small Business Week’s celebrations have consistently been in excess of
             a 1000 people celebrating the achievements of small business and their contribution to
             the Rhode Island economy.
       •     The RI Council and the SBA district office advocated for a state tax credit for the
             SBA guarantee fee. The state law, which was enacted in 1994 and duplicated by
             other states, reduces the cost to small business for receiving a SBA guarantee loan.
       •     The RI Council support, consistent with the SOP, assisted the SBA district office in
             reaching out to the minority community, women, and new markets throughout the
             State of Rhode Island.

                                                 3
                                                                                     APPENDIX A
                                                                                      Page 4 of 4

       •   The SBA district office is the only district office to reach and exceed the district goals
           every year since their establishment by the Agency in 1994.

It must be emphasized that not one small business was hurt by the actions of the RI Council, but
in fact many small businesses across the Nation were assisted. Clearly the RI Council conducted
itself consistently and honorably within what it believed were the dictates of the SOP, as
acknowledged by the report. They did so in furtherance of the programs of SBA and in the best
interest of the Rhode Island small business community. We firmly believe that the men and
women who have served on the RI Council have done so with distinction and in so doing,
unleashed the productive powers of small business in Rhode Island.

In order for the Agency to succeed in its efforts of reaching out to assist our vast and diverse
small business constituency, we need individuals and organizations to provide leadership and
assistance. Hopefully, the recommendations of this report and our responses will help to support
the positive change in existing and future methodologies, in order that SBA is able to continue to
lead and continue the growth and development of small business and the Nation’s economy. We
believe the Advisory Council provides a pivotal role in this effort, and the good work
demonstrated in Rhode Island, as reflected above, is duplicated time and again across the country
through other SBA offices.

Thank you for the opportunity to provide these important comments and we ask that this entire
response be included in your final report.




                                                 4
                                                                                                                       APPENDIX B


                                            AUDIT REPORT DISTRIBUTION



Recipient                                                                                                    Number of Copies

Deputy Administrator ................................................................................................... 1

Region I Administrator ................................................................................................. 1

Rhode Island District Advisory Council ....................................................................... 1

Chief Financial Officer ................................................................................................. 1
 (Attn.: Jeff Brown)

General Counsel ............................................................................................................ 2

General Accounting Office ........................................................................................... 2

Director of Committee Management Secretariat (GSA) ............................................... 1
